<html>
<title> - UTILIZATION AND IMPACTS OF AUTOMATED TRAFFIC ENFORCEMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
        UTILIZATION AND IMPACTS OF AUTOMATED TRAFFIC ENFORCEMENT

=======================================================================

                               (111-125)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             JUNE 30, 2010

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure

       UTILIZATION AND IMPACTS OF AUTOMATED TRAFFIC ENFORCEMENTY





        UTILIZATION AND IMPACTS OF AUTOMATED TRAFFIC ENFORCEMENT

=======================================================================

                               (111-125)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 30, 2010

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
57-250                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a>  
?

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               TOM GRAVES, Georgia
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)

?

                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
BOB FILNER, California               THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              JERRY MORAN, Kansas
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          HENRY E. BROWN, Jr., South 
MICHAEL H. MICHAUD, Maine            Carolina
BRIAN HIGGINS, New York              TIMOTHY V. JOHNSON, Illinois
GRACE F. NAPOLITANO, California      TODD RUSSELL PLATTS, Pennsylvania
DANIEL LIPINSKI, Illinois            BILL SHUSTER, Pennsylvania
MAZIE K. HIRONO, Hawaii              JOHN BOOZMAN, Arkansas
JASON ALTMIRE, Pennsylvania          SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
HEATH SHULER, North Carolina         JIM GERLACH, Pennsylvania
MICHAEL A ARCURI, New York           MARIO DIAZ-BALART, Florida
HARRY E. MITCHELL, Arizona           CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  CONNIE MACK, Florida
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
LAURA A. RICHARDSON, California      CANDICE S. MILLER, Michigan
ALBIO SIRES, New Jersey              MARY FALLIN, Oklahoma
DONNA F. EDWARDS, Maryland           VERN BUCHANAN, Florida
GENE TAYLOR, Mississippi             AARON SCHOCK, Illinois
LEONARD L. BOSWELL, Iowa             VACANCY
RICK LARSEN, Washington
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan, Vice 
Chair
BETSY MARKEY, Colorado
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Danila, Dan, Virginia State Activist, National Motorists 
  Association....................................................     3
Geraci, Michael, Director, Office of Safety Programs, National 
  Highway Traffic Safety Administration..........................     3
Hansen, Captain Glenn, Captain, Howard County, Maryland, Police 
  Department.....................................................     3
Kelly, David, Executive Director, Partnership for Advancing Road 
  Safety.........................................................     3
Loudermilk, Hon. Barry, Georgia State Representative.............     3
McCartt, Dr. Anne, Senior Vice President for Research, Insurance 
  Institute for Highway Safety...................................     3
Reagan, Hon. Ron, Florida State Representative...................     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

DeFazio, Hon. Peter A., of Oregon................................    26
Oberstar, Hon. James L., of Minnesota............................    27
Richardson, Hon. Laura, of California............................    31

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Danila, Dan......................................................    35
Geraci, Michael..................................................    45
Hansen, Captain Glenn............................................    60
Kelly, David.....................................................    66
Loudermilk, Hon. Barry...........................................   217
Mccartt, Dr. Anne................................................   226
Reagan, Hon. Ron.................................................   238

                       SUBMISSIONS FOR THE RECORD

Danila, Dan, Virginia State Activist, National Motorists 
  Association, response to request for information from the 
  Subcommittee...................................................    41
Geraci, Michael, Director, Office of Safety Programs, National 
  Highway Traffic Safety Administration, response to request for 
  information from the Subcommittee..............................    48
Kelly, David, Executive Director, Partnership for Advancing Road 
  Safety, response to request for information from the 
  Subcommittee...................................................    68
Loudermilk, Hon. Barry, Georgia State Representative, response to 
  request for information from the Subcommittee..................   223
McCartt, Dr. Anne, Senior Vice President for Research, Insurance 
  Institute for Highway Safety, response to request for 
  information from the Subcommittee..............................   233
Reagan, Hon. Ron, Florida State Representative, response to 
  request for information from the Subcommittee..................   322

                        ADDITIONS TO THE RECORD

Governors Highway Safety Association, Vernon F. Betkey Jr., 
  Chairman, letter to Chairman DeFazio...........................   325
National Campaign to Stop Red Light Running, Leslie Blakey, 
  Executive Director, written testimony..........................   328

[GRAPHIC] [TIFF OMITTED] T7250.001

[GRAPHIC] [TIFF OMITTED] T7250.002

[GRAPHIC] [TIFF OMITTED] T7250.003

[GRAPHIC] [TIFF OMITTED] T7250.004

[GRAPHIC] [TIFF OMITTED] T7250.005

[GRAPHIC] [TIFF OMITTED] T7250.006

[GRAPHIC] [TIFF OMITTED] T7250.007

[GRAPHIC] [TIFF OMITTED] T7250.008

[GRAPHIC] [TIFF OMITTED] T7250.009



        UTILIZATION AND IMPACTS OF AUTOMATED TRAFFIC ENFORCEMENT

                              ----------                              


                        Wednesday, June 30, 2010

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                     Washington, DC
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2167, Rayburn House Office Building, the Honorable Peter 
A. DeFazio [Chairman of the Subcommittee] presiding.
    Mr. DeFazio. The Highways and Transit Subcommittee will 
come to order.
    Today we are engaging in a hearing at the request of the 
Ranking Member, to which I am fully in agreement, to take a 
good, hard look at what is called automated traffic 
enforcement--some of us know it as speed cameras and red light 
cameras--and to examine the proper and improper utilization of 
such devices; what role the Federal Government should play, if 
any, in regulating the use of these devices or the use of 
Federal highway safety funds to acquire such devices; and to 
better understand how these tools can be utilized and targeted 
at what is their legitimate purpose, which is to make our roads 
and intersections a safer place for the traveling public.
    So I look forward to the testimony. I have read the 
testimony, but will look forward to individuals summarizing 
their best points and/or responding to other members of the 
panel, and we will have an opportunity for questions.
    With that, I turn to the Ranking Member, Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Chairman DeFazio, 
for holding this hearing on utilization and impacts of 
automated traffic enforcement. Specifically, as you said, we 
are talking about the use of red light and speed cameras to 
enforce traffic laws.
    I can assure you, you can never satisfy a government's 
appetite for money or land; they always want more, and the last 
decade has seen a technology boom that has awarded government 
new ways to take more money from the taxpayer. Already, 
government at all levels is taking at least about 40 percent of 
the average citizen's income, and government will continue to 
look for new ways to nickel-and-dime the taxpayer to death. Red 
light and speed cameras are popping up all over the Country.
    In 2008, $3.1 million in red light camera violations were 
issued in the city of Knoxville. Knoxville received $1.1 
million, while the vendor received $2 million. Redflex, the 
company that operates the red light cameras in Knoxville, is an 
Australian company, so most of this revenue is going to foreign 
markets. Three of the largest photo enforcement vendors 
declined to testify, but I understand that we have a witness 
from the Partnership for Advancing Road Safety, Mr. Kelly; that 
is an organization that is funded by the industry, so we will 
hear his testimony.
    Recently, the State of Florida passed legislation allowing 
the use of red light cameras, and they expect annual revenue 
generated by these cameras to be $200 million by 2013.
    These large dollar amounts tell me that this issue is more 
about raising revenue than making our Nation's roads safer.
    While there have been a variety of studies that tout photo 
enforcement as a cost-effective way of improving safety, there 
are other studies that show an increase in vehicle crashes 
after red light cameras were installed. The Washington Post 
analyzed the District of Columbia database generated from 
accident reports filed by police. Since the cameras were 
installed, the analysis shows that the number of crashes at 
locations with cameras more than doubled, from 365 collisions 
in 1998 to 755 in 2004. Injury and fatal crashes climbed 81 
percent, from 144 such wrecks to 262.
    Another such study conducted by the Virginia Transportation 
Research Council found a reduction in red light running crashes 
after red light cameras were installed, but an overall increase 
in crashes and injuries due to more rear-end crashes.
    Some States and localities may be too quick to install 
photo enforcement techniques without first exhausting other 
techniques that can reduce red light running and improve 
safety. Improving sign visibility, installing advanced warning 
flashers, and adjusting yellow light intervals can have a 
positive impact. Numerous studies have found that longer yellow 
signal timing can reduce the frequency of red light running 
violations by as much as 50 percent.
    While these solutions may not fill government coffers as 
much as photo enforcement could, we owe it to our taxpayers to 
explore these engineering improvements that make our roads and 
highways safer.
    If these cameras were really about safety, then I think we 
should donate those fines to private charities. I have never 
forgotten a column written by William Raspberry, a columnist 
for The Washington Post, a very liberal columnist, who wrote 
that private charities, on average, spent 85 percent of their 
funds going to the beneficiaries and only 15 percent going to 
the cost of administration, while government welfare programs 
were exactly opposite, spending 85 percent on their 
administrative and salary costs, and only about 15 percent 
going to the beneficiaries.
    I thank the witnesses for attending this hearing and I look 
forward to their testimony and then the opportunity to ask some 
questions.
    Mr. DeFazio. I thank the gentleman.
    Are there any Members on my side who wish to have an 
opening statement?
    [No response.]
    Mr. DeFazio. OK, then we will go right to testimony, Mr. 
Michael Geraci, Director, Office of Safety Programs, National 
Traffic Safety Administration.

    TESTIMONY OF MICHAEL GERACI, DIRECTOR, OFFICE OF SAFETY 
PROGRAMS, NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION; HON. 
   BARRY LOUDERMILK, GEORGIA STATE REPRESENTATIVE; HON. RON 
  REAGAN, FLORIDA STATE REPRESENTATIVE; CAPTAIN GLENN HANSEN, 
 CAPTAIN, HOWARD COUNTY, MARYLAND, POLICE DEPARTMENT; DR. ANNE 
    MCCARTT, SENIOR VICE PRESIDENT FOR RESEARCH, INSURANCE 
INSTITUTE FOR HIGHWAY SAFETY; DAVID KELLY, EXECUTIVE DIRECTOR, 
PARTNERSHIP FOR ADVANCING ROAD SAFETY; AND DAN DANILA, VIRGINIA 
         STATE ACTIVIST, NATIONAL MOTORISTS ASSOCIATION

    Mr. Geraci. Chairman DeFazio and Ranking Member Duncan and 
Members of the Subcommittee, I am pleased to be here today to 
represent the Department of Transportation on the very 
important safety issue of automated traffic enforcement.
    While the number and rate of traffic deaths have decreased 
significantly in recent years, motor vehicle crashes remain a 
serious national health problem and a leading cause of death in 
particular for young Americans. Under the leadership of 
Secretary LaHood, the Department of Transportation is committed 
to reducing the motor vehicle crash toll that considers every 
available evidence-based strategy for reducing roadway risk. 
Automated traffic enforcement technology is one such strategy, 
with evidence of effectiveness in reducing risk from speeding 
and red light running.
    Speeding is one of the most prevalent factors contributing 
to traffic crashes. In 2008, NHTSA data showed that speeding 
was a contributing factor in 31 percent of all fatal crashes 
and was associated with more than 11,000 fatalities. NHTSA 
estimates that speeding-related crashes cost more than $40 
billion each year.
    A NHTSA study of fatal intersection crashes indicates that 
an average of about 38 percent of such events at signal-
controlled intersections involved at least one driver who ran a 
red light. On average, intersection crashes involving red light 
running result in just about 1,000 deaths per year.
    A significant body of evidence that is further discussed in 
my written testimony reveals that when appropriately used as 
one component of an overall traffic safety and law enforcement 
system, automated enforcement programs can be an effective 
countermeasure for reducing crashes at high-risk locations.
    Automated enforcement systems do not replace the need for 
traditional enforcement operations, but provide an effective 
supplement when used as part of a comprehensive strategy for 
reducing traffic crashes.
    NHTSA and the Federal Highway Administration have developed 
operational guidelines to assist States and communities in 
designing and implementing effective automated speeding and red 
light running systems. These guidelines are based on program 
evaluations and documented successful practices in communities 
all across the Nation. The guidelines stress the importance of 
integrating automated enforcement in a comprehensive system 
that is based on problem identification.
    NHTSA encourages adoption of these automated enforcement 
guidelines through speed management workshops. These workshops 
suggest a comprehensive approach to community speed management, 
including incorporation of automated enforcement where 
appropriate. The workshops involve the active participation of 
the full range of local partners, including highway engineers, 
law enforcement officials, prosecutors, judges, and safety 
advocates. The agency has conducted nine of these workshops, 
reaching practitioners from 46 States.
    Speeding and red light running are serious safety problems, 
and NHTSA is committed to identifying and advancing effective 
solutions to reduce the tragic toll from these unsafe driving 
practices. We will continue to examine the potential safety 
benefits of promising countermeasures, including automated 
enforcement systems, and work closely with States to encourage 
the adoption of effective programs to help improve safety for 
all road users.
    I thank you for today's invitation and I am pleased to 
answer any questions that you may have.
    Mr. DeFazio. Thank you.
    The Honorable Barry Loudermilk, State Representative of 
Georgia. Representative Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chairman and gentlemen and 
ladies of the Committee.
    Georgia, in 2001, passed legislation that allows red light 
cameras to be operated by local, municipal, and county 
governments. After that legislation passed, the Georgia 
legislature had growing concerns over the operation of red 
light cameras in the State. Primarily, those concerns were 
constitutional; the effectiveness of red light cameras, were 
they actually affecting safety, improving safety; concerns also 
of abuse of the red light cameras by local governments; and 
also a lack of regulation and standardization.
    We began looking into the red light camera issue. We don't 
have speeding cameras in Georgia, but we do have the red light 
cameras. We started realizing that there was questionable 
effectiveness on safety, especially numerous media reports 
coming out that accident rates had increased at several of the 
key intersections within the State. Even more recently, Ross 
McLaughlin, an investigative reporter with Channel 11 News, 
reported that some of the highest revenue-generating 
intersections had actually increased all types of accidents, 
including the right-angle or T-bone collisions that the red 
light cameras were supposed to eliminate or reduce.
    As we started looking at effective ways to improve safety, 
we started realizing that there was more than likely a 
financial incentive created by the use of red light cameras 
that local governments were no longer induced or inspired to 
seek out proven engineering methods to improve intersection 
safety. As a result, we passed House Bill 77, which the results 
of that bill has reduced violations of 50 percent in red light 
camera intersections.
    The key component of House Bill 77, there were really three 
components, but the key was requiring an additional second be 
added to the yellow light time of every intersection that 
operated photo enforcement. That additional time requirement 
was to go to the minimum Federal standard time plus an 
additional second. Within 30 days of the additional second 
being added, reduction in violations in some cities were 
reported as much as 81 percent.
    Statewide we have seen a 50 percent reduction in red light 
camera running. Along with that is a 50 percent reduction in 
revenue. As a result, many of the cities that had installed the 
red light cameras as a safety tool have thus removed those 
cameras because they were no longer profitable.
    The other aspect of House Bill 77 was more State oversight 
and standardization. The Department of Transportation is now a 
permitting agency for local governments. Before a local 
government can get a permit to operate a red light camera, 
there are procedures they have to go through which, first of 
all, is they have to show that the intersection in question is 
a dangerous intersection, that there is a compelling reason to 
put a red light camera there. Second, they have to impose and 
they have to go through steps to improve the safety of the 
intersection through engineering standards.
    So the focus of House Bill 77 was to focus the State back 
on safety through engineering, and that photo enforcement would 
be a means of last resort. The results have been phenomenal. 
Georgia's intersections are safer. We have now about 20 percent 
less red light cameras, but we have safer intersections 
throughout the State of Georgia.
    So I think our success in Georgia is a little different 
than a lot of others that you will hear is that our success has 
been in refocusing on safety through engineering, and that the 
red light cameras are going to be a means of last resort.
    So I would be glad to answer any questions as we go through 
the hearing.
    Mr. DeFazio. Thank you, Representative Loudermilk.
    With that, we now turn to the Honorable Ron Reagan, State 
Representative from Florida. Mr. Reagan.
    Mr. Reagan. Good morning. Thank you very much. It is an 
honor and a pleasure to be here.
    Recently, in the State of Florida, we did pass a bill, 
House Bill 325, that allows the use of cameras at 
intersections. When we did this, we focused on two things: 
number one is public safety and number two is uniformity. State 
of Florida cities had already been installing cameras on their 
own, using local ordinances to do so. My bill focused at this 
point in time for uniform standards throughout the entire 
State.
    We passed this bill on May 14th. We called it the Mark 
Wandall Traffic Safety Act, named after a young man who was 
killed about a mile from my house by a vicious red light 
runner. It was signed into law. This piece of legislation was 
passed overwhelmingly by the Florida House of Representatives 
and the Florida Senate.
    Thousands of Floridians have been killed by drivers who run 
red lights as part of their normal behavior. Since 2001, 
Florida has been among the top three States for pedestrian and 
bicyclist fatalities, with the latest numbers showing that 502 
pedestrians and 118 bicyclists were killed by driving behavior, 
primarily people running red lights.
    In Florida, a recent public opinion showed that 72 percent 
of Floridians support the use of automated traffic enforcement 
at intersections. The Mark Wandall Traffic Safety Act, House 
Bill 325, provides critical funding for medical study in the 
form of spinal cord research, makes available funding for 
Florida trauma centers, and it assists local municipalities 
that implement this lifesaving technology.
    Intersection camera programs are designed to use technology 
as a tool for traffic safety on local roads. Camera programs 
can effectively and efficiently modify drivers' behavior by 
increasing enforcement. These programs encourage all drivers to 
follow Federal, State, and local traffic laws. The cameras are 
a proactive solution to reduce preventable deaths, avert 
serious injuries, and reduce output of funds to respond to 
accident scenes. Automated enforcement programs mitigate a host 
of problems that arise on Florida roads when drivers fail to 
stop at red lights.
    This bill requires signage at intersections using traffic 
infraction detectors and provides that traffic infraction 
detectors may not be used to enforce violations when the driver 
is making a right turn in a careful and prudent manner. We 
tried to do our best to address those issues regarding 
financial aspects of the bill and the use of these automated 
systems. The bill provides processes regarding required 
modifications, the issuance of citations to registered owners 
of motor vehicles, and defenses available to vehicle owners.
    Notifications and citations must include the images 
indicating that the motor vehicle violated a traffic control 
device and must offer a physical location or an internet 
address where images or video may be seen. When a citation is 
issued, it may be challenged in a judicial proceeding in the 
same manner as other traffic violations. A contested citation 
upheld by the court may result in additional costs and fees.
    In the State of Florida, one of the things we did was 
points may not be assessed against a driver's license for 
infractions enforced by the use of traffic infraction 
detectors, and violations may not be used for purposes of 
setting motor vehicle insurance rates. Each governmental entity 
that operates a traffic infraction detector must submit an 
annual report to the Department of Highway Safety and Motor 
Vehicles which details the results of detectors and the 
procedures for enforcement.
    I would like to say, in closing, that I believe that 
Florida House Bill 325 will keep Florida's first responders 
from having to go to accident scenes that never needed to occur 
in the first place. This bill will keep Florida's trauma 
centers from having to perform lifesaving measures caused by 
thoughtless drivers who may run red lights as their normal 
driving pattern. The program will prevent habitual and reckless 
driving patterns across Florida. This piece of legislation is a 
good public policy. It brings consistency, it mandates 
uniformity, it encourages public safety, and it is a tool for 
over-utilized law enforcement officials.
    Thank you for your time, and I appreciate the honor to be 
here.
    Mr. DeFazio. Thank you, Representative.
    With that, we turn to Captain Glenn Hansen, a captain with 
the Howard County, Maryland Police Department. Captain?
    Mr. Hansen. Thank you, Mr. Chairman, Members of the 
Committee. I appreciate the opportunity to come and speak to 
you today.
    Howard County, Maryland is midway between Baltimore and 
Washington. We have had our share of safety concerns, just as 
you have seen nationally. In 2008, 102 people died every day on 
our streets, and that is really not acceptable. Transportation 
is a wonderful thing, it gets you from A to B, but we need to 
find ways to do it in a safer manner.
    We talk a lot about a comprehensive approach. We call it a 
4E approach: engineering, enforcement, education, and EMS, all 
working together comprehensively to make it safer for our 
community. That is something that we instituted in Howard 
County, where we were experiencing problems with intersection 
crashes. We looked at it holistically: we did traditional 
enforcement; we expanded that to team enforcement; we did a lot 
of public relations; we tried to get the community with us in 
understanding that there was a problem; and eventually we were 
able to get U.S. Department of Transportation grants to do a 
pilot study to test red light camera technology in the United 
States.
    Starting in the late 1990's, we were able to test that 
technology. The community was very supportive. We issued 
warnings. We were eventually able to get legislation passed. 
That legislation passed in Maryland. It has been extremely 
successful. We have had crash reductions. We have had several 
studies showing that the socioeconomic cost of crashes in 
Maryland have gone down where we put cameras in place.
    Since that time, the system in the United States has 
matured a great deal. The U.S. Department of Transportation has 
issued data-driven guidance on best practices; what works well 
from problem identification to defining how best to address the 
solution; looking at engineering countermeasures and deciding 
when and if automated enforcement is successful and can help 
you with your issue.
    Automated enforcement is a tool; it is not a silver bullet, 
it is not a solution to all your problems. Automated 
enforcement makes enforcement much more efficient, much more 
rapid. But if you do it in a noncomprehensive way, it doesn't 
necessarily make traffic any safer. We recommend doing it in a 
comprehensive way with a safety focus. That is what the USDOT 
guidance is pointing out. We believe strongly that as long as 
people stick to modern programs that are being instituted 
today, stick to the guidance and best practices, use automated 
enforcement as one part of a holistic traffic safety solution, 
that it will continue to be successful in reducing crashes and 
injuries.
    With that, I thank you for your time, and I would be happy 
to answer questions.
    Mr. DeFazio. Thank you, Captain.
    With that, we would turn to Dr. Anne McCartt, Senior Vice 
President for Research, Insurance Institute for Highway Safety. 
Doctor.
    Ms. McCartt. Thank you for the opportunity to share 
research findings about automated traffic enforcement. It is a 
special honor to testify today before Ranking Member Duncan. My 
parents were among the first settlers of East Tennessee. I 
graduated from Fulton High School when your father was mayor. 
My parents now live in Kingsport.
    The Insurance Institute for Highway Safety is a nonprofit 
research and communications organization that identifies ways 
to reduce deaths, injuries, and property damage on our Nation's 
highways. We are funded by auto insurers.
    Running red lights and speeding may be common in some 
communities, but they are illegal and dangerous behaviors. In 
debates about automated enforcement, traffic law violators are 
often portrayed as victims, but the true victims are the people 
injured and killed in crashes. Each year, about 800 people die 
in crashes caused by red light runners, and another 137,000 are 
injured. Speeding was a factor in about 12,000 crash deaths in 
2008, a third of all deaths.
    A high likelihood of apprehension is what convinces 
motorists to obey traffic laws, and automated enforcement 
achieves this. Studies have found that red light cameras reduce 
red light running violations 40 to 50 percent, and these 
reductions in a community spill over to intersections without 
cameras.
    Institute research in three communities with speed cameras 
found dramatic declines in the proportions of drivers traveling 
more than 10 miles an hour over the speed limit. In Montgomery 
County, Maryland, where cameras are used on residential streets 
and in school zones, reductions were 70 percent. On a high 
speed freeway in Scottsdale, Arizona, the odds of speeding fell 
95 percent.
    The key question is whether automated enforcement improves 
safety, and it does. Reviews of the international literature 
show that red light camera enforcement reduces injury crashes 
25 to 30 percent. Speed camera enforcement reduces crashes with 
deaths and serious injuries 40 to 45 percent. Surveys of the 
public have consistently shown acceptance of red light cameras 
and speed cameras.
    Although automated traffic enforcement is not a panacea, it 
is a proven way to reduce traffic violations and prevent 
crashes, especially serious crashes that result in injury or 
death.
    Thank you very much.
    Mr. DeFazio. Thank you, Doctor.
    Mr. David Kelly, Executive Director, Partnership for 
Advancing Road Safety.
    Mr. Kelly. Thank you, Mr. Chairman and Members of the 
Committee. Good morning. Thank you for the opportunity to 
testify today.
    PARS represents communities, safety organizations, and law 
enforcement agencies that use automated road enforcement to 
calm traffic and make their community safer. There will be a 
healthy debate this morning about the role that automated 
enforcement plays in a traffic safety community.
    We know that research tells us that safety cameras work. 
You have heard the statistics, and communities across the 
Country are affirming these successes. From Aurora to Pensacola 
to New Orleans to the District of Columbia to Arizona and 
Maryland, just to cite a few, cameras are keeping the public 
safe.
    We also know that automated enforcement is constitutional. 
Several cases throughout the Country have gone to court and 
been appealed, including many favorable decisions in various 
U.S. circuit courts across the Country. Many of these cases are 
dismissed at the summary judgment level and the programs are 
consistently held constitutionally valid. Not once, when faced 
with the constitutionality of cameras, has photo enforcement 
been found unconstitutional.
    There are those that will debate the merits of the 
technology. However, we should all agree that it is not 
appropriate to speed, run red lights, drive while distracted or 
impaired, or in any other way endanger the lives of others on 
the road. Why should the time of an offender be more valuable 
than that of their victim?
    Photo enforcement saves lives. We have seen it in cities, 
towns, and States across the Country. Independent third-party 
organizations have confirmed that.
    I appreciate your time and interest in this lifesaving 
technology and welcome any questions.
    Mr. DeFazio. Thank you for your succinct testimony.
    Mr. Dan Danila, you are listed as a Virginia State Activist 
with the National Motorists Association.
    Mr. Danila. That is correct.
    Mr. DeFazio. OK.
    Mr. Danila. Thank you for inviting me here to provide 
testimony on this very important topic for our Nation's 
motorists.
    The National Motorists Association basically is a driver's 
rights organization with members in all 50 States and also in 
Canada. The NMA is opposed to the use of automatic traffic 
enforcement. Our objections to such programs can be categorized 
into three major points, and all based on objective data, over 
which I am going to go briefly: one, ticket cameras are usually 
about revenue generation, not about improving safety; number 
two, an individual's right to due process is subverted; three, 
there are less expensive and more effective ways of enhancing 
safety for motorists.
    In the written testimony that you guys have in front of 
you, you will see examples of investigative reports that 
document an increase in accident rates after red light cameras 
have been installed. Typically what happens is the instinctive 
reaction of the drivers when they see a red light camera is to 
hit their brakes, which increases the risk of rear-end 
collisions. Also, on page 7 of my testimony you will see 
examples of counties and cities which have shut down their 
automatic enforcement programs when those programs seemed to be 
profitable money-wise.
    In regards to the individual's rights to due process, 
usually the registered owner of the vehicle is notified by 
regular mail about the alleged violation. First of all, there 
is no proof that he actually got the violation in the mail. 
Second, the owner is presumed guilty until proven otherwise, 
even if he was not driving the vehicle.
    On the third point, there are less expensive and more 
effective ways to increase safety; as an example, I want to 
cite the studies on pages 5 and 6 of my testimony from Loma 
Linda and San Carlos, California, and also a 2003 Texas 
Transportation Institute study which basically concluded, after 
extensive research, that just by increasing yellow lights from 
.5 to 1.5 seconds, it decreases the frequency of red light 
running by at least 50 percent.
    Therefore, the NMA is strongly opposed to the use of 
automatic traffic enforcement. We understand the counties and 
cities may have financial difficulties with their revenues, but 
I think they should use alternative means to raise their 
revenues, and not at the expense of the safety of the 
motorists. Thank you.
    Mr. DeFazio. Thank you, sir.
    We will now go to questions.
    First, Mr. Geraci, we had several people mention the 
Federal guidelines. A two-part question. We had one reference, 
I believe it was from Howard County, to having begun the 
program with some Federal funds. If people are going to utilize 
Federal funds to establish these programs, should there just be 
guidelines or should there be standards that they have to meet 
in order to use Federal highway safety funds?
    Mr. Geraci. The funding actually goes through the States 
through highway safety grants, various sections of the highway 
safety grants. So, really, it is the States that look at what 
those requests come in from their local communities and make a 
decision based on need.
    Our guidelines are best practices from around the Country 
where we have assembled really what we think is the appropriate 
measures to look at; number one: problem identification, before 
you put any of these systems in place.
    So while there may be funding available, again, it is not 
directly from USDOT, but, rather, to the States, and it is for 
the States to make some rational decisions on what those needs 
are in local communities.
    Mr. DeFazio. If you have been following our attempts, thus 
far thwarted by the Obama Administration, to rewrite Federal 
surface transportation policy and implement an overdue 
reauthorization, you might have noted that we are proposing to 
require more accountability by the States, in exchange for 
flexibility.
    Now, what you are describing gives flexibility; the States 
have the Federal funds. But the question would be about 
accountability; that is, did the State require local 
jurisdictions to have a comprehensive plan to look at all of 
the solutions that might mitigate the problems? Did they 
appropriately choose intersections that have problems, that are 
dangerous, with these comprehensive plans, or are the cameras 
revenue-generating?
    Did they meet the Federal guidelines in terms of the period 
of the yellow light? I think that is pretty compelling 
testimony we heard from Representative Loudermilk about the 
impacts of the yellow period, the impacts when it was adjusted 
upward as opposed to having been adjusted downward, which seems 
to maximize revenues.
    Wouldn't these be concerns that you would have?
    Mr. Geraci. Well, they are concerns. We have actually 
implemented some performance measures for various forms of 
highway safety funding that is in place right now, so I think 
these are discussions, certainly, that we will have in the 
future as more of these systems become in place, as more States 
become involved in their interest in them.
    Mr. DeFazio. Do you think there would be an appropriate 
role for the Federal Government to require these sorts of best 
practices by the State, the State then having flexibility with 
the funds within its own jurisdiction?
    Mr. Geraci. I am not sure where the requirement sits right 
now, but certainly those exact discussions are taking place, 
and I would expect them to become more advanced as we move 
forward with more States interested.
    Mr. DeFazio. OK.
    Representative Loudermilk, I thought, in particular, the 
discussion of the rear-end accidents and yellow lights was 
fairly extraordinary. You talked very specifically about the 
reduction in violations. I didn't find in the testimony a 
specific discussion of comparative accident results at those 
intersections. Do you have that or does that exist? You know, I 
mean, if violations were down 70 percent, what was the before 
and after in terms of accidents at that intersection?
    Mr. Loudermilk. Well, it varies. We are still compiling the 
data. One of the problems we have had in Georgia is there was 
lack of enforcement or penalty, I should say, for local 
governments who didn't follow the State law regarding red light 
cameras, so a great instance was we required annual reporting 
that went to the legislature prior to House Bill 77. Reports 
were due by the end of February. Half the reports wouldn't show 
up; those that did come were late. So there is a lot of data 
that we are missing in the past.
    House Bill 77 does put penalties into place now. Basically, 
the penalty is if there is any violation of the State law 
regarding red light cameras, then all the revenue generated 
from the red light camera during that time period goes to the 
State. So we are seeing a lot more compliance.
    And, again, a lot of the data that we are getting is coming 
from the local media, whose opinion on red light cameras have 
changed significantly in the last two years. Two years ago, 
there were proponents of red light cameras, but as more data is 
coming out and abuses by local government, we are seeing a lot 
of change. So a lot of the data that we are getting is done 
through investigative reporting.
    So through the House Transportation Committee that I serve 
on, we are starting to compile a lot of that data from the 
cities so that we can analyze why are we seeing an increase in 
accidents at certain intersections. Half of the intersections 
we are seeing an increase in accidents; not just rear-end, but 
also angle collisions. Is it because of the location? There was 
no constraints, prior to House Bill 77, on where a red light 
camera could go, and we saw a lot of cameras going into low 
speed, high congestion intersections that weren't accident 
prone, but they were high revenue generators.
    So we are trying to find that correlation right now. What 
we are finding is that there has been a financial incentive to 
not do the engineering aspect for safety.
    So that is a long way of answering that a lot of that data 
we are still compiling.
    Mr. DeFazio. OK. Just one other quick question. If they are 
out of compliance, you require them to remit all the fines to 
the State. I guess I am wondering, if they are out of 
compliance, whether that would raise questions about the guilt 
or not of the violators, and I wonder why the money wouldn't go 
back to the persons who received the citations when that 
jurisdiction was out of compliance.
    Mr. Loudermilk. Well, that was, you may say, an unintended 
consequence of the legislation, because, as we were drafting 
the legislation, we never envisioned that local governments 
would just blatantly be not in compliance with State law. 
Something we are looking at changing is the City of Atlanta 
recently had to give $35,000 to the State because they operated 
one red light camera; their permit was denied by the State 
Department of Transportation because, over the period of having 
the red light camera there, there was either no reduction or, 
in this case, there was an increase in accidents. So the DOT 
saw that the red light camera was not being effective, denied 
the permit. The City of Atlanta continued to operate the 
camera.
    So during that time period, by law, they have to give that 
money to the State. We are looking at--that should have gone 
back to the violators, especially that same intersection. A 
year ago the City failed to add the additional second to the 
yellow light time until CNN came up to do an interview and the 
time got added at that point.
    Judges in the past have ruled that monies had to be 
refunded back to the citizens in situations like that, so that 
is something that we are going to be looking in this coming 
legislative session to change the existing law.
    Mr. DeFazio. OK.
    Now, Mr. Kelly, hearing the testimony from Representative 
Loudermilk, where they find that there had not been adequate 
yellow light timing, and a questionable choice of 
intersections. You seem to broadly endorse this technology and 
don't acknowledge that these problems exist and/or there should 
be some sort of either State or Federal mandatory guidelines. 
Do you want to address those concerns?
    Mr. Kelly. Mr. DeFazio, let me say this--
    Mr. DeFazio. And I would reiterate what the Ranking Member 
said, which is we did invite vendors, and they refused. I 
thought of subpoenaing them, but we have a lot of other things 
to do. But I find it disturbing that none of them wanted to 
come and talk about what a great thing they are doing for 
America here.
    Mr. Kelly. Well, I thank you for having me as the second 
choice.
    Let me say this, Mr. DeFazio. We wholly would support 
working with State and Federal authorities to develop programs 
and standards and outline an effective program. When you are 
talking about an issue of amber light timing, the amber light 
timing is something that is set by professional traffic 
engineers. That is something that they have a very specific 
formula for. I am not an engineer, I don't talk engineer talk, 
but they have a very specific traffic formula whereby they set 
those amber light times, and we think that they are the 
professionals and they are the ones that should be setting 
amber light times.
    Mr. DeFazio. But all they do is set, as I understand it, 
Mr. Geraci, a minimum standard, which perhaps it has a 
parameter, upper/lower, I don't know.
    Mr. Geraci. That is correct. But again, as Mr. Kelly said, 
it is up to those local engineers to establish what that timing 
is.
    Mr. DeFazio. Right.
    Mr. Geraci. The recommendations are----
    Mr. DeFazio. And apparently at some of these jurisdictions 
in Georgia, and perhaps elsewhere, they decided to either not 
increase it or to minimize it in order to maximize infractions 
and cause more accidents. That is kind of a problem.
    Mr. Kelly. Well, if those decisions are being made at the 
local level, they are being made by the local authorities, they 
are not being made by the vendors of the machines. We have no 
access to that information.
    Mr. DeFazio. Well, I guess the question is: there is an 
issue of local control, State control, and Federal, and I guess 
the position I am headed toward here is for any Federal money 
that is invested, it must comply with comprehensive assessment 
of the problems and/or intersections, and a comprehensive 
approach must be taken, which might or might not include the 
automated enforcement; and, if it does, that the automated 
enforcement would not be to generate revenues, but to be put 
back into more safety improvements, which would probably 
preclude some of the contracts your companies have here.
    OK, with that, I have exceeded my time and I will turn to 
the Republican side. I will have another round of questions.
    Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman, Mr. Duncan.
    Good to have you all with us today.
    Mr. Geraci, what were some of the negative effects from the 
automated red light camera systems that you detected in your 
review of the seven international evaluations?
    Mr. Geraci. Really, the----
    Mr. Coble. Or were there any?
    Mr. Geraci. If any, there may have been some rear-end 
collisions. There were significant improvements in right-angle 
collisions, which are typically higher speed, more severe in 
terms of property damage and injury. But there was some slight 
indication of increases of rear-end collisions because of 
following too close or stopping suddenly, but that is really 
the only indication that might be there.
    Mr. Coble. Thank you.
    Mr. Loudermilk, did you find that once engineering 
solutions were implemented at intersections with photo 
enforcement, that violations dropped dramatically to the extent 
that localities canceled their photo enforcement contracts 
because insufficient revenue was being generated?
    Mr. Loudermilk. Yes, sir, we did. Specifically, in 12 
cities, within three months of House Bill 77 going into effect, 
at least the additional one second to the amber time going into 
effect, we had 12 cities to remove some or all of the red light 
cameras because the revenues dropped below the cost to operate 
the cameras. I guess the most compelling was the City of 
Dalton, Georgia, the carpet capital of the world. The mayor not 
only removed his red light cameras, made the statement that 
they did not see any significant improvement or any improvement 
at all in safety until they added the one second. Not only did 
they remove the camera, but they went and added one second to 
all the major intersections in the city because they saw that 
the timing of the yellow light significantly reduced red light 
running and improved safety much more than they ever saw from 
red light cameras.
    Mr. Coble. I thank you, sir.
    Mr. Loudermilk. Thank you.
    Mr. Coble. Mr. Reagan, you alluded to House Bill 325. Has 
that bill been enacted or is it awaiting enactment?
    Mr. Reagan. Actually, it goes into effect July 1st. So this 
week it will actually go into effect.
    Mr. Coble. Well, who is responsible for reviewing the tapes 
and issuing subsequent citations?
    Mr. Reagan. What we did in the State of Florida, we put 
that back on every local law enforcement official. No citation 
can be issued in the State of Florida, regardless of what 
camera company the individual city is using, unless a local law 
enforcement official reviews the tape, issues a citation using 
basically whatever language that they would have for their 
current issuance of a citation.
    Mr. Coble. And how does the bill, Mr. Reagan, provide for 
distribution of revenue?
    Mr. Reagan. Primarily what we did was split the revenue 
basically in half, between the local municipality, the other 
half going to the State of Florida. The money that goes to the 
State of Florida does go to our general revenue fund. Of the 
balance that stays in the local community, they have to operate 
their camera costs out of that.
    Now, a portion of the money that goes to the State of 
Florida is directed to trauma centers and brain and spinal 
institute studies.
    Mr. Coble. I thank you, sir.
    Dr. McCartt, in your testimony you mentioned that the 
installation of roundabouts at intersections can reduce 
accidents by 40 percent. What other engineering modifications 
can result in a reduction of speeding and red light running 
crashes, A; and, B, how do these other improvements compare to 
photo enforcement?
    Ms. McCartt. Well, I think the main thing that would come 
to mind, as others have mentioned, lengthening the yellow 
signal. And we have done research that shows that the proper 
yellow signal time does reduce red light running violations. 
But we did a study in Philadelphia a couple years ago where we 
actually worked with the city and they first made the yellow 
timing meet the engineering requirements and actually even go 
beyond that, and that did reduce red light running violations 
by about a third.
    But then they added red light camera enforcement and there 
was a further reduction of 96 percent in violations beyond the 
reductions achieved with yellow timing. So we concluded from 
that study that at some intersections better yellow timing 
won't fully address the problem of red light running.
    Mr. Coble. I thank you.
    Thank you again, Mr. Chairman. My red light is about to 
illuminate, so I will yield back.
    Mr. DeFazio. We don't want to hit you with a violation, 
Howard.
    With that, I would turn to Mr. Baird.
    Mr. Baird. Thank you, Mr. Chairman.
    And I thank our witnesses. A couple of quick things. First 
of all, as a behavioral scientist, I just have to say the mere 
possibility that accident rates go up following installation of 
red light cameras does not necessarily mean they are 
ineffective. The research design might suggest that maybe there 
are just a lot more people on that road. So you just have to 
watch that reporting conclusion.
    Secondly, what is the average cost to install and maintain 
one of these? Mr. Kelly?
    Mr. Kelly. Thank you, Mr. Baird. The average cost to 
install a red light pole is around $100,000. That cost is borne 
by the manufacturer, and those costs get recouped back through 
monthly leases with the locality.
    Mr. Baird. OK. One of the things that puzzles me about this 
is, my experience with this, it seems like it is a little bit 
like invisible fencing for your dog, but the shock doesn't come 
for about three weeks, in the mail, and then you wonder why 
your dog is not stopping at the invisible fence. How do I know 
that there is a red light camera or a speeding camera present, 
other than this little obscure sign that I drive by a week 
after I got the red light ticket and realize I should have 
slowed down?
    Mr. Reagan. If I may, in the State of Florida, part of our 
legislation requires basically I call it a massive sign, it is 
almost like a billboard type sign at every intersection where a 
camera is being used. In addition to that, on the right turn on 
red there is an additional sign that is going to be located 
right there.
    So, in my opinion, if someone violates that law with 
signage there, I hate to say it, but they deserve the ticket.
    Mr. Baird. Yes, I think that makes sense. I mean, to me, 
behaviorally, I would say that if I look at that red light and 
there is a flag on it and I say,``Ah!'', then you are more 
likely to get people to stop running red lights. So too with 
speeding; if you have some type of marking on the pavement or 
something that says you have a speeding camera here, then, you 
know--people slow down when they see the police car.
    Mr. Reagan. Absolutely.
    Mr. Baird. They drive faster when there is not a police car 
present. Well, if you have an invisible police car, you have a 
good revenue generator, but you don't have a public safety 
generator here, would be my perspective.
    What do we know about the use of these things in school 
zones? I have twin five-year-olds, and people drive like crazy 
past their school, and it is quite frustrating. What do we know 
about their effective use in school zones?
    Mr. Kelly. We do know, Mr. Baird, that school zones are a 
popular place for mainly speed cameras, as opposed to red light 
cameras, to be implemented, and we do need some more data about 
the effectiveness in school zones. We need more data generally 
on the effectiveness of speed cameras. There are studies out 
there that do show that speeds are reduced, but we don't have 
nearly the quantitative number of studies on speed camera 
enforcement effectiveness as we do on red light effectiveness.
    Mr. Baird. I am intrigued by this yellow light issue. Every 
now and then you visit another community, and you are driving, 
and suddenly the yellow is a lot quicker than in your own 
community. What do we know, in the absence of punitive-like 
cameras, about safety in general as it pertains to the length 
of the yellow light signal?
    Mr. Loudermilk. Well, thank you for the question; I think 
it is very good and it is very relevant. A lot of the 
information that we have derived actually goes back to a 
testimony to this body by the former majority leader, Dick 
Armey, in studies that he had done that showed that an increase 
in just one second of a yellow light time can decrease 
accidents 30 to 40 percent. However, a decrease in the yellow 
light time has the opposite effect, but even greater, in that 
it increases the number of red light running.
    One thing to keep in mind is the majority of injury 
accidents or the majority of accidents that happen in these 
intersections is not by the intentional red light runner, the 
person who is turning left and gets caught by a short yellow. 
The majority of these accidents are caused by the unintentional 
runner; the person who is texting, who----
    Mr. Baird. That is very helpful. Some of us will not allow 
Dick Armey to be cited as a predominant expert.
    Dr. McCartt, do you have any response to that?
    Sorry, but I am suspect of Dick Armey.
    Ms. McCartt. Our research does show that yellow signal 
timings that meet the engineering guidelines do reduce 
violations. But as I said earlier, we also showed that red 
light cameras further reduce violations. So it is sometimes not 
enough to change the yellow signal.
    Mr. Baird. Great. I thank you.
    No disrespect to our witness here, or to Mr. Armey, I just 
want a second opinion on that.
    Thanks. I yield back.
    Mr. DeFazio. I thank the gentleman and turn now to 
Representative Buchanan. This will be the last round of 
questions. We have votes. I assume Members do have questions, 
so we will recess for those votes. Hopefully you can all stay. 
The votes, by the time we leave, should be concluded in about 
25 or 30 minutes. OK?
    Go ahead.
    Mr. Buchanan. Thank you, Mr. Chairman.
    Representative Reagan, it is great to see you here today. 
He has been a great leader in our community and in Florida, and 
obviously this is an issue that has been very important to you 
and been passed into law. Let me ask you. In your testimony, 
you said there have been probably about 5600 injuries 
prevented. What do you base that on? I mean, how did you come 
up with that number?
    Mr. Reagan. By the way, Representative Buchanan, it is good 
to see you. Thanks for being here and thanks for inviting me, 
as well.
    What we looked at was statistical data that was provided by 
the Department of Highway Safety and Motor Vehicles, and we had 
to make a conclusion based on the parameters and data that they 
gave us, and what we did is we said if these violations had not 
occurred, what injuries would not have occurred. And that is 
where we extrapolated that data for the State of Florida.
    Mr. Buchanan. And how many accidents will this prevent in 
the years to come? Do you have any sense of that going forward 
once this gets fully implemented in Florida?
    Mr. Reagan. Well, number one, I think it is really going to 
depend on how many of these cameras are installed, what cities, 
what intersections. As we speak, the Department of Highway 
Safety and Motor Vehicles, as well as the Department of 
Transportation, are working to come up with standardized data 
that other States have used for the conditions to use these 
cameras and at what intersections.
    All the statistical data that I have seen throughout the 
Nation, T-bone type accidents generally drop anywhere from 50 
to 70 percent when these cameras are installed. While I have 
heard testimony that rear-end collisions have gone up, in some 
communities they have. In our test data in Sarasota and Manatee 
Counties, we had three intersections with these cameras for 90 
days and we did not have one single rear-end collision.
    So I do believe, number one, if we educate the motoring 
public, number two, if we engineer correctly the standards and 
the intersections where these cameras are used, I believe we 
are going to see a dramatic reduction in accidents.
    Mr. Buchanan. Why did you initially get involved in this 
proposed bill? What happened in your area? I don't know if I 
have ever heard that story. Because you have spent a lot of 
energy and time and been a major leader in Florida on it, and I 
know it is your bill in the new law, but what was the 
motivation initially?
    Mr. Reagan. Thank you, Representative. Actually, a 
constituent of yours and mine that was killed about a mile from 
my house, on State Road 70. He and his brother-in-law had gone 
out for dinner, were returning. His wife was nine months 
pregnant. He had a green arrow, made the turn, and a woman, at 
about 50 miles an hour, slammed into the side, killing him 
instantly. Two weeks after she buried her husband, she 
delivered her only child.
    She actually contacted me after that, looking for some 
situation, some help as to what can we do for habitual drivers, 
number one, and people who do violate the law, primarily red 
light camera running. By the way, her husband's name was Mark 
Wandall; her name is Melissa Wandall, and she has been a very 
great advocate in the State of Florida, as you well know.
    I worked with her for about a year looking at what could we 
do legally to try to prevent red light running. The cameras, we 
found they work. We have studied other States and, as you well 
know, I spent five years in the State of Florida trying to get 
this legislation passed. I do believe they are going to work. I 
do believe it is going to make our roads safer in the State of 
Florida, as well as the rest of the Country, when these things 
are implemented. But, realistically, I got involved because one 
of my constituents was killed.
    Mr. Buchanan. Well, thanks for your leadership. I know that 
you just term limited out. We are going to miss you, but, 
again, thanks for your leadership.
    And I yield back.
    Mr. DeFazio. I thank the gentleman for his questions.
    We will recess until 11:30. And if any of you have other 
commitments, I understand, but if you can be here at 11:30, it 
would be appreciated for additional questions.
    The Committee stands in recess.
    [Recess.]
    Mr. DeFazio. The Committee will return to order and I would 
recognize the Ranking Member, Representative Duncan, for 
questions.
    Mr. Duncan. Well, thank you, Mr. Chairman.
    First, let me tell the witnesses how sorry I am that we 
have had these votes to interrupt this hearing, but this 
sometimes happens. So we are going to make this quick. I have a 
luncheon appointment at 11:45, so, really, I am just going to 
ask one question that I am curious about. Can anybody tell me 
what percentage of these red light violations are for turning 
right, as opposed to actually running the red light?
    Mr. Reagan. Mr. Duncan, I will tell you one of the studies 
we did in the State of Florida was that very issue, and that is 
right turn on red, and what is the revenue generated from that 
versus people that blow right through the intersection. In some 
cities it was as high at 60 percent; in some cities it was as 
low as 35 percent. So I would say, realistically, what we found 
was probably in the neighborhood of 50 to 55 percent of 
violations were for right turn on red.
    What we did in the State of Florida, though, we said since, 
number one, no citation can be issued in the State of Florida 
unless the local law enforcement official reviews the tape, 
certifies basically using the standard if you were there and 
could write a ticket, would you. I mean, while we didn't write 
that in the bill, that is kind of the explanation we gave and 
asked them to do.
    But what they did was simply this. We also put in our 
language if you make that right turn on red, even though it is 
a violation of the law, in a careful and prudent manner, then 
no citation should be issued. So we left it up to local law 
enforcement officials, whether it is in Pensacola, Tampa, or 
Miami. Since they know their own rules, they know their own 
roads, they know their own intersections, we think it makes 
sense to do it that way.
    But basically, to get back to your question, it is over 50 
percent on average.
    Mr. Duncan. Well, the reason I asked that is this. I am 
really skeptical about these polls that say most people support 
these things, because I have noticed, in Mr. Danila's form 
here, that 15 States and 11 cities have now banned the use of 
these cameras. And I guess the reason that I got so interested 
in it was not only because I was having a lot of people talk to 
me about it but, in addition, it was a real controversial thing 
in the last session of the Tennessee legislature.
    I mean, they really got into this in a big, big way, and I 
guess they did in Georgia too, Representative Loudermilk. And 
it wouldn't have been such a big issue in the Tennessee 
legislature if a lot of people weren't talking about it, and 
some of the legislators told me that they were hearing from a 
lot of people. And the ones I was hearing from were all these 
people upset about this turning right on the red lights, 
because we have been doing that for years. Now, just flat out 
running a red light, not too many people are concerned about 
that.
    But I am impressed, though, by the fact that this increased 
use of the yellow light can make such a difference and going to 
more roundabouts and increased signage and these other things, 
and I think these cities should try all these other things 
first.
    And I will always be convinced. You know, we have created 
so many parks in this Country now we can't even take care of 
all of them, and we can't get the use out of them unless people 
just somehow find the way to go on permanent vacations. And we 
keep taking all this land off the tax rolls at the same time 
that the police and the schools and everybody is coming to us 
wanting more money.
    So the States have tried to come up with every way they 
possibly could to raise money, and all the States have gone 
most heavily into gambling--lotteries and other forms of 
gambling--and I understand that. And I think these red light 
cameras are a whole lot more about money than they are about 
safety. I know people say it is about safety, but you will 
never convince me, because I think, as I said in my opening 
statement, you can never satisfy government's appetite for 
money or land; they always want more. And they are going to get 
it one way or the other, I assume, but I don't think it is 
good.
    So I was impressed and appreciated all of your testimonies. 
I have learned from it and I think it has been a good hearing. 
I am sorry that we were interrupted by the votes, but thank you 
very much for being here.
    And thank you, Mr. Chairman, for calling this hearing.
    Mr. DeFazio. I thank the gentleman both for raising the 
subject and for his participation, and recognize that we ran 
over, so he has another commitment, but I have a few additional 
questions.
    Captain Hansen, in your testimony you said the 
International Association of Chiefs of Police and NHTSA are 
working together to establish technical standards for red light 
and speed cameras. Can you give us a little bit more 
elaboration on that? Because we had some discussion about 
guidelines earlier. Is this different? What are we talking 
about here?
    Mr. Hansen. It is different. Thank you, sir. The 
International Association of Chiefs of Police and NHTSA have 
formed a subcommittee called ETATS, and that committee is 
setting up technical standards. So the guidelines on red light 
running camera systems operational guidelines, speed 
enforcement systems operational guidelines, they look at the 
policy issues, look at how a program should be established, 
from problem identification to pulling your stakeholders 
together, to making sure you look at engineering alternatives 
before you go to enforcement, all of that, which I support 100 
percent, I think is critical.
    Once you get to you are going to do automated enforcement 
and what steps do you take from there, ETATS is picking up with 
technical standards to make sure that when a local government 
entity or a local law enforcement agency selects a piece of 
technology, that that technology does accurately reflect the 
car that is running the red light, it does capture an image 
when the light turns red, doesn't make any mistaken images, and 
does it in a reliable manner.
    So where the operational guidelines are very important for 
what they do, these technical standards are also important for 
what they do.
    Mr. DeFazio. OK, thank you.
    Mr. Kelly, you talked earlier about the average $100,000 
installation cost, and a couple of the Members that were here 
at that point sort of raised their eyebrows. I guess we are 
talking a very tall standard and a large boom that has to 
exceed truck height, so basically that is generally how they 
are suspended and that is where most of the cost comes in?
    Mr. Kelly. The cost comes in from not only the pole and the 
camera on top of the pole, but also there are sensors that are 
built into the intersection that can judge the speed of the 
oncoming vehicle, keep that in mind with the light that is 
about to turn or has turned; it can judge the speed and make a 
pretty good assessment of whether or not that vehicle is going 
to go through the intersection----
    Mr. DeFazio. Meaning if they say it was a yellow light and 
I couldn't stop safely.
    Mr. Kelly. Yes. And at that point, that is when the camera 
will get triggered to take a picture of that vehicle going 
through the intersection. So it is not a situation where the 
cameras are taking pictures of every single vehicle that goes 
through the intersection, it is just the ones that are most 
likely or highly likely to run the red light in the first 
place.
    So the cost comes from the equipment and also from the 
construction of putting the sensors and the coils in the 
intersection.
    Mr. DeFazio. We had some other testimony about some of 
these devices being removed. Mr. Danila spoke to this. He said 
there are many examples of automated enforcement programs being 
shut down because they are not profitable. I guess first I 
would ask Mr. Danila to sort of expand or comment on what is 
many. Give us a number.
    Mr. Danila. Well, basically, what they looked at in certain 
situations, some of those examples that are listed in my 
written testimony, is the yellow lights at certain 
intersections have been increased to the point--normally they 
are supposed to be increased based on engineering studies, and 
then they noticed that basically the traffic cameras were not 
profitable anymore because nobody--I shouldn't say nobody, but 
there is a huge decrease in the incidents of people running the 
red light. And basically what happened was the cost of 
operating these cameras, as Mr. Kelly said is pretty 
significant, didn't make the revenue they were supposed to 
generate, and then certain counties and cities eventually have 
given up using them because they were not profitable.
    Mr. DeFazio. Right. But I asked the question about the word 
many. Do you have a list? Can you quantify?
    Mr. Danila. Yes, there is a list, actually on page 7 of my 
testimony.
    Mr. DeFazio. OK. All right.
    Mr. Danila. Basically there is a list of States and then 
particular cities which have banned these programs.
    Mr. DeFazio. Mr. Kelly, I understand the installation cost; 
you explained that. But it doesn't seem to me that there would 
be a particularly substantial ongoing operating cost, so I am a 
bit puzzled here as to why so many places would be removing the 
cameras. I mean, in particular, if it isn't that you have to 
parse through all the traffic, as you explained, you don't, it 
is people approaching too quickly, knowing the cycle of the 
light, and then they are likely and then they are videoed, and 
then that is reviewed.
    And there is obviously a cost to the public agency in 
Florida to review, but that is not your cost or your vendor's 
cost. So I am curious what is the substantial operating cost 
and why would there be so many withdrawn? Because it doesn't 
seem to me there would be a very large monthly operating cost.
    Mr. Kelly. Thank you, Mr. Chairman. We have really two 
issues at play here. As Mr. Danila points out, there have been 
some localities that have withdrawn the cameras, and his 
contention would be it is because they are not making the 
revenue that they thought they would make. Another way to look 
at that would be that the cameras were there to address a 
safety issue, and when you have the violations going down and 
when you have crashes going down, the safety issue has been 
addressed; and there may not be a safety need for the camera at 
that particular intersection anymore, and that could be one of 
the considerations that localities are taking when they are 
withdrawing the cameras from an intersection.
    Mr. DeFazio. But that would imply a permanent change, 
withdrawing the enforcement mechanism. I would argue that there 
may have been a decrease in violations, but it may increase if 
you remove--
    Mr. Kelly. And it may, but there are some instances in 
traffic safety enforcement programs that you see the deterrence 
effect and the halo effect of that happening continuing out. 
You see the same sort of thing with drunk driving enforcement 
when you know checkpoints are at a particular intersection. 
Even if they are not there every time you drive through that 
intersection, the perception of enforcement is out there and it 
changes your behavior.
    On your other question about the monthly fees and the 
associated costs, one of the things that the vendors do, it is 
not just sort of put in the equipment and walk away. The 
vendors do monthly services, and it is negotiated, it is 
different with every locality; it is sort of a negotiated 
contract, where they are taking the cameras and processing it--
--
    Mr. DeFazio. Right. But again, it seems to me there is a 
big investment up front, it is amortized or not amortized, and 
it just seems that a monthly maintenance fee in comparison to 
that would be quite small. Can you give me a number of what 
monthly maintenance fees run? Or is this an issue where you 
expect a minimum return, and if the jurisdiction or the 
intersection doesn't meet that, then the jurisdiction has to 
make up the difference and, therefore, they have a motivation 
to remove the light because they are now not getting revenue 
from it, but have to pay for it? Is that the problem?
    Mr. Kelly. To the contrary, sir. What we are seeing now 
with a lot of the contracts that municipalities and localities 
are entering into is that they are holding themselves harmless.
    Mr. DeFazio. OK.
    Mr. Kelly. Whereas, if you are not receiving enough revenue 
to pay for the equipment for their monthly fee or whatever it 
is, they are holding themselves harmless and they are saying--
and I will make a number up here--if we are going to charge you 
$5,000 a month, but we only have $4,000 a month in revenues, we 
are not responsible for the other $1,000; those costs have to 
be borne by the vendor.
    So those types of contracts are becoming more popular and 
increasingly in use in various localities. So the cities are 
really putting the onus back on the vendors for their----
    Mr. DeFazio. So who, then, controls the decision to remove 
the device if it is a money-losing proposition; is it up to the 
vendor, is it joint? What do the contracts normally say there?
    Mr. Kelly. The city has the ultimate decision on whether or 
not a device is to be removed.
    Mr. DeFazio. So if it has been installed, it is there, and 
even if it is losing money, the city can say ``we want to keep 
it there''?
    Mr. Kelly. Depending on the various contracts with the 
locality, there are escape clauses that are there. But the 
reason that the cameras are there and the reason that the 
cameras are effective is because people are running red lights 
and people are speeding.
    Mr. DeFazio. Right. OK, but I am just trying----
    Mr. Kelly. There is a need there to address this issue, and 
photo enforcement is one of the tools, as others have talked 
about, one of the tools of enforcement that go along with 
traditional enforcement.
    Mr. DeFazio. Sure. OK, I got that. What about what Mr. 
Baird said, which I think makes a tremendous amount of sense, 
which is: require prominent posting of these intersections 
which would give people--I think he is spot on in terms of 
saying that would bring about compliance at sort of the after-
the-fact, oh gosh, I didn't know there was a camera there, I go 
through that intersection every day; now I won't do it again.
    Or maybe you just went through that intersection once and 
it is not going to make any difference in your behavior because 
you are not going through it again; maybe you will be careful 
somewhere else, maybe you won't. What about prominent posting? 
What is the position of your association on prominent posting?
    Mr. Kelly. Signage is in use in many different programs 
across the Country and is something that is an integral part to 
an effective program. Remember, the goal of the program is to 
reduce the incidence in the first place. So we do support in 
various States and localities, wherever working with the 
vendor, prominent signage to let people know this is an issue; 
this is an area where there is photo enforcement.
    And the definition of prominent signage is mostly regulated 
on a State level, so what might be prominent in one district 
could be different than what is prominent in another district, 
but prominent signage so people understand this is an 
intersection where there is photo enforcement, this is a 
freeway where there is speed enforcement. And how that is 
signed and people understand that there is a problem is 
something that we would support.
    Mr. DeFazio. All right.
    Mr. Danila, would your organization oppose any use of 
automated technology, even if we have taken a comprehensive 
approach, we are meeting best practices in terms of length of 
yellow light, we have prominent signage and we have looked at 
design parameters, we have looked at other factors and we still 
have a problem? Are you opposed then to the use of automated 
technology even then?
    Mr. Danila. I think yes, and the reason probably in that 
case would be, one, would be the way the drivers are actually 
being notified about these alleged violations. First of all, 
the camera is very unpopular to the public. Every time they 
appear on ballots, they get voted down. And the way the drivers 
get notified, first of all, nobody knows who the driver was, 
you know, there is just a vehicle who is getting----
    Mr. DeFazio. Yes, but I think you have a responsibility to 
control the use of your vehicle and be certain the person using 
your vehicle uses the vehicle responsibly. So you can't just 
say, oh, I have a friend who has a drunk driving problem, I am 
going to lend him my car and I am not going to worry about it.
    Mr. Danila. That is correct. However, the notification 
process, the way it is currently in place, I think has some 
flaws in terms of the driver, the owner of the vehicle, is 
notified by regular mail, and I know this for a fact, from a 
personal situation when it happened to a friend of mine who 
actually did not get the actual so-called first notification.
    However, he got the second one with a double fine. And when 
he called in to contest it, he was told he has to pay what the 
double fine is or otherwise his fine would be reported to the 
credit collectors and stuff. So that is one of the main 
problems I think that this program is facing, about notifying 
properly the drivers about the situation.
    The other thing, the second problem is there is no human 
factor involved in it. If, let's say, a driver contests it in 
court, there is nobody there from the State who would actually 
say, yes, this was the driver who committed this violation. 
There is hearsay, basically; there is a camera on the road that 
took a picture.
    And that leads to the third problem, which is how well 
these cameras are actually maintained, because I know for a 
fact in some places they had problems with weather 
interference, whether two vehicles were photographed in the 
same picture. So there were other problems with the maintenance 
of the cameras themselves which at times may not function 
properly; however, they still issued a citation.
    So I think on these three levels the NMA would definitely 
still oppose the cameras.
    Mr. DeFazio. OK. Would either Representative Loudermilk or 
Representative Reagan want to address those issues or that 
issue?
    Mr. Loudermilk. Yes, Mr. Chairman, and thank you. The 
question that you posed to the gentleman, from a personal 
standpoint, I would still be opposed to the red light cameras 
from a constitutional standpoint. The statement was made 
earlier that there have been no court cases ruling them 
unconstitutional, but just this year the State of Minnesota, in 
Minnesota v. Coleman, the Supreme Court of Minnesota ruled that 
placing the burden of proof upon the accused is a violation of 
the Fifth Amendment by due process.
    And currently in California the Supreme Court is hearing a 
case from a lower appellate court, interestingly enough, 
dealing with the Sixth Amendment, the right to confront your 
accuser, and stating that a camera is so focused on an 
intersection that it can't testify to other aspects of what was 
going on.
    And a perfect illustration we have had of that in Georgia 
that we are trying to address in the legislature now is the 
legal running of red lights, such as a funeral procession. We 
have had instances where funeral parlors have contacted me and 
said we have a problem; every time the procession goes through 
an intersection, every car in the procession receives a red 
light camera ticket. There is no provision in the law for them 
to get out of it because they can't sign off saying that they 
weren't the driver because they were.
    And we had an incident where a citizen from Alabama was 
required by the City of Rome in Georgia to drive back into 
Georgia--they were there out of State for a funeral--get a copy 
of the obituary that ran in the local paper, and take it to the 
local court before they would allow them out of paying the 
fine.
    So there is this continual concern that although House Bill 
77 has been very effective in Georgia in reducing red light 
running, it still has not addressed the constitutional concerns 
of the Fifth, the Sixth, now what we are seeing with the Sixth 
Amendment--in fact, the State of South Dakota, the Supreme 
Court is dealing with a Fifth Amendment case right now dealing 
with due process.
    But also the Fourteenth Amendment we are looking at in 
Georgia that states that no State shall deprive any citizen of 
life, liberty, or property without due process to law. Without 
taking a picture of the driver, it is very difficult to not put 
the burden of proof upon the accused, especially.
    And there are many instances where they didn't necessarily 
loan the car to someone; we have had many instances where the 
tag was misread, a G was read as a C. We have also had 
instances where a maintenance shop had the vehicle and was test 
driving the vehicle and ran through the intersection. So now 
the accused is having to prove that--in fact, we have had 
instances where they were out of State, and they have had to go 
and show airline tickets and hotel tickets, taking time off 
work.
    So there are still going to remain the constitutional 
concerns, but if we are going to have the red light cameras, 
then we have to focus on the safety.
    Mr. DeFazio. Representative Reagan?
    Mr. Reagan. If I might. Thank you, Mr. DeFazio, I 
appreciate that. I would like to address two things. One is the 
notification. In the State of Florida, we have toll booths at 
expressways, just like many other States do, and if you violate 
that under State statute today, we send the owner of the 
vehicle a picture of the automobile violating the law and a 
$100 fine. We don't take a picture of the driver because we 
ask, just as you said, Mr. DeFazio, we ask that you, as the 
owner of the vehicle, be responsible for your vehicle.
    Also, parking tickets. Virtually every State sends a ticket 
to the owner of the vehicle, not the driver of the vehicle.
    So I think notification is fine; I don't think there is a 
problem with that whatsoever, and I think those standards 
should be followed properly.
    Now, my colleague brought up something regarding funeral 
processions. In the bill in the State of Florida, we actually 
addressed that very specifically. If you are in a funeral 
procession, then all you have to do is basically make a 
statement to that effect and you are off the hook. Also, if you 
are at the direction of a law enforcement official violating a 
red light via getting out of the way of an ambulance or 
anything of that nature, also you have the opportunity to do 
that.
    And one other thing we did in the State of Florida, when 
you receive the citation, is simply this: If you were not the 
driver and you do know who that driver is, you can sign an 
affidavit to that effect, and we transfer the ticket away from 
you to that individual.
    So I think we are trying, in the State of Florida, to 
address all the concerns that we have heard throughout the 
Nation.
    I might also mention one other thing. We have heard 
testimony today about the extension of the amber light by one 
additional second. We ran tests in Florida regarding that very 
thing and, yes, it does initially stop people from running red 
lights by 50 percent. I have heard the testimony and I will buy 
that, with the exception of two things. Number one is once you 
have changed somebody's driving habit and behaviors, we did a 
test study, and five days after we added the additional second 
to the amber light, the same people were violating that red 
light again.
    The other concern about that is what about the next 
intersection down the road that doesn't have the extension on 
their amber light? We found that people actually exceed the 
speed limit running that next red light because of the fact 
they believe, mentally, they have gotten in the habit of they 
have that extra time.
    So I don't necessarily believe that adding the one 
additional second, unless you are going to do it across your 
entire State or across the entire Nation, then you are going to 
have, I think, tremendous additional traffic problems if you do 
that. So proper engineering probably is the thing to do 
overall.
    Mr. DeFazio. Thank you.
    Mr. Kelly. Mr. Chairman, may I just address the court cases 
for a second?
    Mr. DeFazio. Briefly, yes. Go ahead.
    Mr. Kelly. I would say the Seventh Circuit Court of Appeals 
agrees with you about responsibility for the ticket, and they 
have issued such an opinion, and I would be happy to provide 
that to the Committee for the record.
    Mr. DeFazio. Sure. OK, thank you.
    OK, anybody have anything they wanted to add, contest, or 
otherwise augment the record with?
    [No response.]
    Mr. DeFazio. OK, seeing no volunteers, then, I would thank 
you all for your time and your testimony on this issue, and the 
Committee stands adjourned.
    [Whereupon, at 12:03 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T7250.010
    
    [GRAPHIC] [TIFF OMITTED] T7250.011
    
    [GRAPHIC] [TIFF OMITTED] T7250.012
    
    [GRAPHIC] [TIFF OMITTED] T7250.013
    
    [GRAPHIC] [TIFF OMITTED] T7250.014
    
    [GRAPHIC] [TIFF OMITTED] T7250.015
    
    [GRAPHIC] [TIFF OMITTED] T7250.016
    
    [GRAPHIC] [TIFF OMITTED] T7250.017
    
    [GRAPHIC] [TIFF OMITTED] T7250.018
    
    [GRAPHIC] [TIFF OMITTED] T7250.019
    
    [GRAPHIC] [TIFF OMITTED] T7250.020
    
    [GRAPHIC] [TIFF OMITTED] T7250.021
    
    [GRAPHIC] [TIFF OMITTED] T7250.022
    
    [GRAPHIC] [TIFF OMITTED] T7250.023
    
    [GRAPHIC] [TIFF OMITTED] T7250.024
    
    [GRAPHIC] [TIFF OMITTED] T7250.025
    
    [GRAPHIC] [TIFF OMITTED] T7250.026
    
    [GRAPHIC] [TIFF OMITTED] T7250.027
    
    [GRAPHIC] [TIFF OMITTED] T7250.028
    
    [GRAPHIC] [TIFF OMITTED] T7250.029
    
    [GRAPHIC] [TIFF OMITTED] T7250.030
    
    [GRAPHIC] [TIFF OMITTED] T7250.031
    
    [GRAPHIC] [TIFF OMITTED] T7250.032
    
    [GRAPHIC] [TIFF OMITTED] T7250.033
    
    [GRAPHIC] [TIFF OMITTED] T7250.034
    
    [GRAPHIC] [TIFF OMITTED] T7250.035
    
    [GRAPHIC] [TIFF OMITTED] T7250.036
    
    [GRAPHIC] [TIFF OMITTED] T7250.037
    
    [GRAPHIC] [TIFF OMITTED] T7250.038
    
    [GRAPHIC] [TIFF OMITTED] T7250.039
    
    [GRAPHIC] [TIFF OMITTED] T7250.040
    
    [GRAPHIC] [TIFF OMITTED] T7250.041
    
    [GRAPHIC] [TIFF OMITTED] T7250.042
    
    [GRAPHIC] [TIFF OMITTED] T7250.043
    
    [GRAPHIC] [TIFF OMITTED] T7250.044
    
    [GRAPHIC] [TIFF OMITTED] T7250.045
    
    [GRAPHIC] [TIFF OMITTED] T7250.046
    
    [GRAPHIC] [TIFF OMITTED] T7250.047
    
    [GRAPHIC] [TIFF OMITTED] T7250.048
    
    [GRAPHIC] [TIFF OMITTED] T7250.049
    
    [GRAPHIC] [TIFF OMITTED] T7250.050
    
    [GRAPHIC] [TIFF OMITTED] T7250.051
    
    [GRAPHIC] [TIFF OMITTED] T7250.052
    
    [GRAPHIC] [TIFF OMITTED] T7250.053
    
    [GRAPHIC] [TIFF OMITTED] T7250.054
    
    [GRAPHIC] [TIFF OMITTED] T7250.055
    
    [GRAPHIC] [TIFF OMITTED] T7250.056
    
    [GRAPHIC] [TIFF OMITTED] T7250.057
    
    [GRAPHIC] [TIFF OMITTED] T7250.058
    
    [GRAPHIC] [TIFF OMITTED] T7250.059
    
    [GRAPHIC] [TIFF OMITTED] T7250.060
    
    [GRAPHIC] [TIFF OMITTED] T7250.061
    
    [GRAPHIC] [TIFF OMITTED] T7250.062
    
    [GRAPHIC] [TIFF OMITTED] T7250.063
    
    [GRAPHIC] [TIFF OMITTED] T7250.064
    
    [GRAPHIC] [TIFF OMITTED] T7250.065
    
    [GRAPHIC] [TIFF OMITTED] T7250.066
    
    [GRAPHIC] [TIFF OMITTED] T7250.067
    
    [GRAPHIC] [TIFF OMITTED] T7250.068
    
    [GRAPHIC] [TIFF OMITTED] T7250.069
    
    [GRAPHIC] [TIFF OMITTED] T7250.070
    
    [GRAPHIC] [TIFF OMITTED] T7250.071
    
    [GRAPHIC] [TIFF OMITTED] T7250.072
    
    [GRAPHIC] [TIFF OMITTED] T7250.073
    
    [GRAPHIC] [TIFF OMITTED] T7250.074
    
    [GRAPHIC] [TIFF OMITTED] T7250.075
    
    [GRAPHIC] [TIFF OMITTED] T7250.076
    
    [GRAPHIC] [TIFF OMITTED] T7250.077
    
    [GRAPHIC] [TIFF OMITTED] T7250.078
    
    [GRAPHIC] [TIFF OMITTED] T7250.079
    
    [GRAPHIC] [TIFF OMITTED] T7250.080
    
    [GRAPHIC] [TIFF OMITTED] T7250.081
    
    [GRAPHIC] [TIFF OMITTED] T7250.082
    
    [GRAPHIC] [TIFF OMITTED] T7250.083
    
    [GRAPHIC] [TIFF OMITTED] T7250.084
    
    [GRAPHIC] [TIFF OMITTED] T7250.085
    
    [GRAPHIC] [TIFF OMITTED] T7250.086
    
    [GRAPHIC] [TIFF OMITTED] T7250.087
    
    [GRAPHIC] [TIFF OMITTED] T7250.088
    
    [GRAPHIC] [TIFF OMITTED] T7250.089
    
    [GRAPHIC] [TIFF OMITTED] T7250.090
    
    [GRAPHIC] [TIFF OMITTED] T7250.091
    
    [GRAPHIC] [TIFF OMITTED] T7250.092
    
    [GRAPHIC] [TIFF OMITTED] T7250.093
    
    [GRAPHIC] [TIFF OMITTED] T7250.094
    
    [GRAPHIC] [TIFF OMITTED] T7250.095
    
    [GRAPHIC] [TIFF OMITTED] T7250.096
    
    [GRAPHIC] [TIFF OMITTED] T7250.097
    
    [GRAPHIC] [TIFF OMITTED] T7250.098
    
    [GRAPHIC] [TIFF OMITTED] T7250.099
    
    [GRAPHIC] [TIFF OMITTED] T7250.100
    
    [GRAPHIC] [TIFF OMITTED] T7250.101
    
    [GRAPHIC] [TIFF OMITTED] T7250.102
    
    [GRAPHIC] [TIFF OMITTED] T7250.103
    
    [GRAPHIC] [TIFF OMITTED] T7250.104
    
    [GRAPHIC] [TIFF OMITTED] T7250.105
    
    [GRAPHIC] [TIFF OMITTED] T7250.106
    
    [GRAPHIC] [TIFF OMITTED] T7250.107
    
    [GRAPHIC] [TIFF OMITTED] T7250.108
    
    [GRAPHIC] [TIFF OMITTED] T7250.109
    
    [GRAPHIC] [TIFF OMITTED] T7250.110
    
    [GRAPHIC] [TIFF OMITTED] T7250.111
    
    [GRAPHIC] [TIFF OMITTED] T7250.112
    
    [GRAPHIC] [TIFF OMITTED] T7250.113
    
    [GRAPHIC] [TIFF OMITTED] T7250.114
    
    [GRAPHIC] [TIFF OMITTED] T7250.115
    
    [GRAPHIC] [TIFF OMITTED] T7250.116
    
    [GRAPHIC] [TIFF OMITTED] T7250.117
    
    [GRAPHIC] [TIFF OMITTED] T7250.118
    
    [GRAPHIC] [TIFF OMITTED] T7250.119
    
    [GRAPHIC] [TIFF OMITTED] T7250.120
    
    [GRAPHIC] [TIFF OMITTED] T7250.121
    
    [GRAPHIC] [TIFF OMITTED] T7250.122
    
    [GRAPHIC] [TIFF OMITTED] T7250.123
    
    [GRAPHIC] [TIFF OMITTED] T7250.124
    
    [GRAPHIC] [TIFF OMITTED] T7250.125
    
    [GRAPHIC] [TIFF OMITTED] T7250.126
    
    [GRAPHIC] [TIFF OMITTED] T7250.127
    
    [GRAPHIC] [TIFF OMITTED] T7250.128
    
    [GRAPHIC] [TIFF OMITTED] T7250.129
    
    [GRAPHIC] [TIFF OMITTED] T7250.130
    
    [GRAPHIC] [TIFF OMITTED] T7250.131
    
    [GRAPHIC] [TIFF OMITTED] T7250.132
    
    [GRAPHIC] [TIFF OMITTED] T7250.133
    
    [GRAPHIC] [TIFF OMITTED] T7250.134
    
    [GRAPHIC] [TIFF OMITTED] T7250.135
    
    [GRAPHIC] [TIFF OMITTED] T7250.136
    
    [GRAPHIC] [TIFF OMITTED] T7250.137
    
    [GRAPHIC] [TIFF OMITTED] T7250.138
    
    [GRAPHIC] [TIFF OMITTED] T7250.139
    
    [GRAPHIC] [TIFF OMITTED] T7250.140
    
    [GRAPHIC] [TIFF OMITTED] T7250.141
    
    [GRAPHIC] [TIFF OMITTED] T7250.142
    
    [GRAPHIC] [TIFF OMITTED] T7250.143
    
    [GRAPHIC] [TIFF OMITTED] T7250.144
    
    [GRAPHIC] [TIFF OMITTED] T7250.145
    
    [GRAPHIC] [TIFF OMITTED] T7250.146
    
    [GRAPHIC] [TIFF OMITTED] T7250.147
    
    [GRAPHIC] [TIFF OMITTED] T7250.148
    
    [GRAPHIC] [TIFF OMITTED] T7250.149
    
    [GRAPHIC] [TIFF OMITTED] T7250.150
    
    [GRAPHIC] [TIFF OMITTED] T7250.151
    
    [GRAPHIC] [TIFF OMITTED] T7250.152
    
    [GRAPHIC] [TIFF OMITTED] T7250.153
    
    [GRAPHIC] [TIFF OMITTED] T7250.154
    
    [GRAPHIC] [TIFF OMITTED] T7250.155
    
    [GRAPHIC] [TIFF OMITTED] T7250.156
    
    [GRAPHIC] [TIFF OMITTED] T7250.157
    
    [GRAPHIC] [TIFF OMITTED] T7250.158
    
    [GRAPHIC] [TIFF OMITTED] T7250.159
    
    [GRAPHIC] [TIFF OMITTED] T7250.160
    
    [GRAPHIC] [TIFF OMITTED] T7250.161
    
    [GRAPHIC] [TIFF OMITTED] T7250.162
    
    [GRAPHIC] [TIFF OMITTED] T7250.163
    
    [GRAPHIC] [TIFF OMITTED] T7250.164
    
    [GRAPHIC] [TIFF OMITTED] T7250.165
    
    [GRAPHIC] [TIFF OMITTED] T7250.166
    
    [GRAPHIC] [TIFF OMITTED] T7250.167
    
    [GRAPHIC] [TIFF OMITTED] T7250.168
    
    [GRAPHIC] [TIFF OMITTED] T7250.169
    
    [GRAPHIC] [TIFF OMITTED] T7250.170
    
    [GRAPHIC] [TIFF OMITTED] T7250.171
    
    [GRAPHIC] [TIFF OMITTED] T7250.172
    
    [GRAPHIC] [TIFF OMITTED] T7250.173
    
    [GRAPHIC] [TIFF OMITTED] T7250.174
    
    [GRAPHIC] [TIFF OMITTED] T7250.175
    
    [GRAPHIC] [TIFF OMITTED] T7250.176
    
    [GRAPHIC] [TIFF OMITTED] T7250.177
    
    [GRAPHIC] [TIFF OMITTED] T7250.178
    
    [GRAPHIC] [TIFF OMITTED] T7250.179
    
    [GRAPHIC] [TIFF OMITTED] T7250.180
    
    [GRAPHIC] [TIFF OMITTED] T7250.181
    
    [GRAPHIC] [TIFF OMITTED] T7250.182
    
    [GRAPHIC] [TIFF OMITTED] T7250.183
    
    [GRAPHIC] [TIFF OMITTED] T7250.184
    
    [GRAPHIC] [TIFF OMITTED] T7250.185
    
    [GRAPHIC] [TIFF OMITTED] T7250.186
    
    [GRAPHIC] [TIFF OMITTED] T7250.187
    
    [GRAPHIC] [TIFF OMITTED] T7250.188
    
    [GRAPHIC] [TIFF OMITTED] T7250.189
    
    [GRAPHIC] [TIFF OMITTED] T7250.190
    
    [GRAPHIC] [TIFF OMITTED] T7250.191
    
    [GRAPHIC] [TIFF OMITTED] T7250.192
    
    [GRAPHIC] [TIFF OMITTED] T7250.193
    
    [GRAPHIC] [TIFF OMITTED] T7250.194
    
    [GRAPHIC] [TIFF OMITTED] T7250.195
    
    [GRAPHIC] [TIFF OMITTED] T7250.196
    
    [GRAPHIC] [TIFF OMITTED] T7250.197
    
    [GRAPHIC] [TIFF OMITTED] T7250.198
    
    [GRAPHIC] [TIFF OMITTED] T7250.199
    
    [GRAPHIC] [TIFF OMITTED] T7250.200
    
    [GRAPHIC] [TIFF OMITTED] T7250.201
    
    [GRAPHIC] [TIFF OMITTED] T7250.202
    
    [GRAPHIC] [TIFF OMITTED] T7250.203
    
    [GRAPHIC] [TIFF OMITTED] T7250.204
    
    [GRAPHIC] [TIFF OMITTED] T7250.205
    
    [GRAPHIC] [TIFF OMITTED] T7250.206
    
    [GRAPHIC] [TIFF OMITTED] T7250.207
    
    [GRAPHIC] [TIFF OMITTED] T7250.208
    
    [GRAPHIC] [TIFF OMITTED] T7250.209
    
    [GRAPHIC] [TIFF OMITTED] T7250.210
    
    [GRAPHIC] [TIFF OMITTED] T7250.211
    
    [GRAPHIC] [TIFF OMITTED] T7250.212
    
    [GRAPHIC] [TIFF OMITTED] T7250.213
    
    [GRAPHIC] [TIFF OMITTED] T7250.214
    
    [GRAPHIC] [TIFF OMITTED] T7250.215
    
    [GRAPHIC] [TIFF OMITTED] T7250.216
    
    [GRAPHIC] [TIFF OMITTED] T7250.217
    
    [GRAPHIC] [TIFF OMITTED] T7250.218
    
    [GRAPHIC] [TIFF OMITTED] T7250.219
    
    [GRAPHIC] [TIFF OMITTED] T7250.220
    
    [GRAPHIC] [TIFF OMITTED] T7250.221
    
    [GRAPHIC] [TIFF OMITTED] T7250.222
    
    [GRAPHIC] [TIFF OMITTED] T7250.223
    
    [GRAPHIC] [TIFF OMITTED] T7250.224
    
    [GRAPHIC] [TIFF OMITTED] T7250.225
    
    [GRAPHIC] [TIFF OMITTED] T7250.226
    
    [GRAPHIC] [TIFF OMITTED] T7250.227
    
    [GRAPHIC] [TIFF OMITTED] T7250.228
    
    [GRAPHIC] [TIFF OMITTED] T7250.229
    
    [GRAPHIC] [TIFF OMITTED] T7250.230
    
    [GRAPHIC] [TIFF OMITTED] T7250.231
    
    [GRAPHIC] [TIFF OMITTED] T7250.232
    
    [GRAPHIC] [TIFF OMITTED] T7250.233
    
    [GRAPHIC] [TIFF OMITTED] T7250.234
    
    [GRAPHIC] [TIFF OMITTED] T7250.235
    
    [GRAPHIC] [TIFF OMITTED] T7250.236
    
    [GRAPHIC] [TIFF OMITTED] T7250.237
    
    [GRAPHIC] [TIFF OMITTED] T7250.238
    
    [GRAPHIC] [TIFF OMITTED] T7250.239
    
    [GRAPHIC] [TIFF OMITTED] T7250.240
    
    [GRAPHIC] [TIFF OMITTED] T7250.241
    
    [GRAPHIC] [TIFF OMITTED] T7250.242
    
    [GRAPHIC] [TIFF OMITTED] T7250.243
    
    [GRAPHIC] [TIFF OMITTED] T7250.244
    
    [GRAPHIC] [TIFF OMITTED] T7250.245
    
    [GRAPHIC] [TIFF OMITTED] T7250.246
    
    [GRAPHIC] [TIFF OMITTED] T7250.247
    
    [GRAPHIC] [TIFF OMITTED] T7250.248
    
    [GRAPHIC] [TIFF OMITTED] T7250.249
    
    [GRAPHIC] [TIFF OMITTED] T7250.250
    
    [GRAPHIC] [TIFF OMITTED] T7250.251
    
    [GRAPHIC] [TIFF OMITTED] T7250.252
    
    [GRAPHIC] [TIFF OMITTED] T7250.253
    
    [GRAPHIC] [TIFF OMITTED] T7250.254
    
    [GRAPHIC] [TIFF OMITTED] T7250.255
    
    [GRAPHIC] [TIFF OMITTED] T7250.256
    
    [GRAPHIC] [TIFF OMITTED] T7250.257
    
    [GRAPHIC] [TIFF OMITTED] T7250.258
    
    [GRAPHIC] [TIFF OMITTED] T7250.259
    
    [GRAPHIC] [TIFF OMITTED] T7250.260
    
    [GRAPHIC] [TIFF OMITTED] T7250.261
    
    [GRAPHIC] [TIFF OMITTED] T7250.262
    
    [GRAPHIC] [TIFF OMITTED] T7250.263
    
    [GRAPHIC] [TIFF OMITTED] T7250.264
    
    [GRAPHIC] [TIFF OMITTED] T7250.265
    
    [GRAPHIC] [TIFF OMITTED] T7250.266
    
    [GRAPHIC] [TIFF OMITTED] T7250.267
    
    [GRAPHIC] [TIFF OMITTED] T7250.268
    
    [GRAPHIC] [TIFF OMITTED] T7250.269
    
    [GRAPHIC] [TIFF OMITTED] T7250.270
    
    [GRAPHIC] [TIFF OMITTED] T7250.271
    
    [GRAPHIC] [TIFF OMITTED] T7250.272
    
    [GRAPHIC] [TIFF OMITTED] T7250.273
    
    [GRAPHIC] [TIFF OMITTED] T7250.274
    
    [GRAPHIC] [TIFF OMITTED] T7250.275
    
    [GRAPHIC] [TIFF OMITTED] T7250.276
    
    [GRAPHIC] [TIFF OMITTED] T7250.277
    
    [GRAPHIC] [TIFF OMITTED] T7250.278
    
    [GRAPHIC] [TIFF OMITTED] T7250.279
    
    [GRAPHIC] [TIFF OMITTED] T7250.280
    
    [GRAPHIC] [TIFF OMITTED] T7250.281
    
    [GRAPHIC] [TIFF OMITTED] T7250.282
    
    [GRAPHIC] [TIFF OMITTED] T7250.283
    
    [GRAPHIC] [TIFF OMITTED] T7250.284
    
    [GRAPHIC] [TIFF OMITTED] T7250.285
    
    [GRAPHIC] [TIFF OMITTED] T7250.286
    
    [GRAPHIC] [TIFF OMITTED] T7250.287
    
    [GRAPHIC] [TIFF OMITTED] T7250.288
    
    [GRAPHIC] [TIFF OMITTED] T7250.289
    
    [GRAPHIC] [TIFF OMITTED] T7250.290
    
    [GRAPHIC] [TIFF OMITTED] T7250.291
    
    [GRAPHIC] [TIFF OMITTED] T7250.292
    
    [GRAPHIC] [TIFF OMITTED] T7250.293
    
    [GRAPHIC] [TIFF OMITTED] T7250.294
    
    [GRAPHIC] [TIFF OMITTED] T7250.295
    
    [GRAPHIC] [TIFF OMITTED] T7250.296
    
    [GRAPHIC] [TIFF OMITTED] T7250.297
    
    [GRAPHIC] [TIFF OMITTED] T7250.298
    
    [GRAPHIC] [TIFF OMITTED] T7250.299
    
    [GRAPHIC] [TIFF OMITTED] T7250.300
    
    [GRAPHIC] [TIFF OMITTED] T7250.301
    
    [GRAPHIC] [TIFF OMITTED] T7250.302
    
    [GRAPHIC] [TIFF OMITTED] T7250.303
    
    [GRAPHIC] [TIFF OMITTED] T7250.304
    
    [GRAPHIC] [TIFF OMITTED] T7250.305
    
    [GRAPHIC] [TIFF OMITTED] T7250.306
    
    [GRAPHIC] [TIFF OMITTED] T7250.307
    
    [GRAPHIC] [TIFF OMITTED] T7250.308
    
    [GRAPHIC] [TIFF OMITTED] T7250.309
    
    [GRAPHIC] [TIFF OMITTED] T7250.310
    
    [GRAPHIC] [TIFF OMITTED] T7250.311
    
    [GRAPHIC] [TIFF OMITTED] T7250.312
    
    [GRAPHIC] [TIFF OMITTED] T7250.313
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
